HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross and Blue Shield of Florida, (A-07-95-01125)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed For Medicare Reimbursement by Blue Cross
and Blue Shield of Florida," (A-07-95-01125)
December 7, 1995
Complete Text of Report is available in PDF format
(134 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Pension Costs Claimed for
Medicare Reimbursement by Blue Cross and Blue Shield of Florida (Florida). For
1992 and 1993, we determined that Florida has not claimed $216,113 in pension
costs that are allowable for Medicare reimbursement. During this period, the
allowable Medicare pension costs were $2,808,784. However, Florida claimed pension
costs of $2,592,671 for Medicare reimbursement. As a result, Florida has not
claimed $216,113 in allowable CAS pension costs. The under claim occurred primarily
because Florida based its claims on estimated pension costs as computed by their
consulting actuary. We recommended Florida revise its Final Administrative Cost
Proposals (FACPs) to claim the remaining allowable pension costs.